No. _________________
______________________________________________________________
____
IN THE SUPREME COURT OF THE UNITED STATES
________________________________________
ERIC HENRY WOODBERRY
and
BRADFORD MARSELAS JOHNSON
Petitioners,
v.
UNITED STATES OF AMERICA
Respondent

______________________________________________________________
APPENDIX A
PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT
______________________________________________________________
SUZANNE LEE ELLIOTT
SUITE 339, 2400 N.W. 80TH STREET
SEATTLE WA 98117
SUZANNE-ELLIOTT@MSN.COM
(206) 623-0291
Counsel for the Petitioners

United States v. Woodberry, 987 F.3d 1231 (2021)
21 Cal. Daily Op. Serv. 1443, 2021 Daily Journal D.A.R. 1439

987 F.3d 1231
United States Court of Appeals, Ninth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Eric Henry WOODBERRY, Defendant-Appellant.
United States of America, Plaintiff-Appellee,
v.
Bradford Marselas Johnson, Defendant-Appellant.
No. 19-30225, No. 19-30284
|
Argued and Submitted November
17, 2020 Seattle, Washington
|
Filed February 11, 2021
Synopsis
Background: Two defendants were convicted in the United
States District Court for the Western District of Washington,
Richard A. Jones, J., of Hobbs Act robbery, first defendant
was convicted of possession of firearm in furtherance of
a crime of violence and drug trafficking crime, second
defendant was convicted of aiding and abetting first
defendant's firearm possession, and both defendants received
enhanced mandatory minimum sentences based on first
defendant's use of short-barreled firearm in furtherance of a
crime of violence. Defendants appealed.

Holdings: As matters of apparent first impression, the Court
of Appeals, Gould, Circuit Judge, held that:
short-barreled rifle or shotgun provision, in statute setting
forth enhanced mandatory minimum sentence for use of
short-barreled rifle or shotgun in furtherance of crime of
violence, is an essential element that must be proven to a jury
beyond a reasonable doubt, and
short-barreled rifle or shotgun element does not require proof
that defendant knew that the rifle or shotgun was a shortbarreled rifle or shotgun.

Attorneys and Law Firms
*1232 Michael Nance (argued), Bainbridge Island,
Washington, for Defendant-Appellant Eric Henry Woodberry.
Suzanne Lee Elliott (argued), Seattle, Washington, for
Defendant-Appellant Bradford Marselas Johnson.
Erin H. Becker (argued), Assistant United States Attorney;
Brian T. Moran, United States Attorney; United States
Attorney's Office, Seattle, Washington; for PlaintiffAppellee.
Appeal from the United States District Court for the Western
District of Washington, Richard A. Jones, District Judge,
Presiding, D.C. Nos. 2:18-cr-00049-RAJ-2, 2:18-cr-00049RAJ-1
Before: Ronald M. Gould and Michelle T. Friedland, Circuit
Judges, and Stephen R. Bough, * District Judge.

OPINION
GOULD, Circuit Judge:
*1233 Eric Woodberry (“Woodberry”) and Bradford
Johnson (“Johnson”) (collectively, “Defendants”) were
arrested for robbing a licensed marijuana dispensary in
Washington State. A jury found them both guilty of Hobbs
Act robbery under 18 U.S.C. § 1951(a) and (b)(1). The jury
separately found Johnson guilty of possession of a firearm in
furtherance of a crime of violence and a drug trafficking crime
under 18 U.S.C. § 924(c)(1)(A)(ii). As Johnson's accomplice,
Woodberry was convicted of aiding and abetting Johnson's
firearm possession offense. Finally, both Defendants had their
mandatory minimum sentences increased after the jury found
that Johnson used a short-barreled rifle during the robbery in
violation of 18 U.S.C. § 924(c)(1)(B)(i). 1 Defendants appeal
their convictions based on what they contend were erroneous
jury instructions.
We have jurisdiction under 28 U.S.C. § 1291 and 18 U.S.C.
§ 3742(a). We affirm.

Affirmed.

I

Procedural Posture(s): Appellate Review; Trial or Guilt
Phase Motion or Objection; Pre-Trial Hearing Motion.

On November 21, 2017, two armed and disguised men walked
into a licensed marijuana dispensary in Washington State.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Woodberry, 987 F.3d 1231 (2021)
21 Cal. Daily Op. Serv. 1443, 2021 Daily Journal D.A.R. 1439

They ordered the employees at gunpoint to hand over cash
and garbage bags filled with marijuana. Unbeknownst to the
two robbers, however, the dispensary owner was monitoring
the store on a live surveillance feed. He called the police,
who quickly arrived at the dispensary. The robbers made
their getaway through a back door, leaving most of their haul
behind.
Police arrested Defendants several hours later. Store
employees later identified Defendants as the two men who
had robbed the store. Though neither Defendant was armed
upon arrest, Johnson was later linked to one of the weapons
believed to have been used in the robbery: an MG Industries,
model Marck-15, 7.62x39 rifle. Woodberry's gun was never
recovered.
A grand jury indicted Defendants in 2018 and issued a
superseding indictment one year later. Three of those charges
are relevant here. First, Defendants were both charged with
Hobbs Act robbery, in violation of 18 U.S.C. § 1951(a)
and (b)(1). Second, Johnson was separately charged with
possessing and “brandishing” a firearm in furtherance of
a crime of violence, in violation of 18 U.S.C. § 924(c)(1)
(A)(ii). Woodberry, in turn, was charged with aiding and
abetting Johnson's firearm offense. Third, Defendants were
charged under 18 U.S.C. § 924(c)(1)(B)(i), which increases
a defendant's mandatory minimum sentence if the defendant
used a short-barreled rifle to commit a crime of violence. A
short-barreled rifle is defined as a rifle “having *1234 one
or more barrels less than sixteen inches in length.” 18 U.S.C.
§ 921(a)(8).
In pretrial proceedings, the district court issued a jury
instruction for the Hobbs Act robbery charge, which stated
that the jury had to find that the robbery “affected or
could have affected commerce over which the United States
has jurisdiction.” The instruction also defined “commerce”
broadly:
The market for marijuana, including its intrastate aspects,
is commerce over which the United States has jurisdiction.
It is not necessary for the government to prove that
the defendant knew or intended that his conduct would
affect commerce; it must prove only that the natural
consequences of his conduct affected commerce in some
way. Also, you do not have to find that there was an actual
effect on commerce. The government must show only that
the natural result of the offense would be to cause an effect
on commerce to any degree, however minimal or slight.

With respect to the short-barreled rifle charge, the district
court instructed the jury that it could find the Defendants
guilty if the Government proved that the barrel of Johnson's
rifle a barrel was less than sixteen inches long. The district
court omitted, over objections from both Defendants, any
requirement that the jury find that Defendants knew that the
barrel of Johnson's rifle was shorter than sixteen inches.
After a trial, the jury found Defendants guilty on all of these
charges. Defendants appealed, arguing that their convictions
were based on faulty jury instructions.

II
We review questions of statutory interpretation de novo.
United States v. Jefferson, 791 F.3d 1013, 1015 (9th Cir.
2015). Likewise, “[w]hether a jury instruction misstates the
law, an element of the crime, or the burden of proof is
similarly subject to de novo review.” United States v. Doe,
705 F.3d 1134, 1143 (9th Cir. 2013).

III
A
Johnson asserts that the district court erred in its jury
instruction for the Hobbs Act (the “Act”) robbery charge. The
Act provides, in relevant part:

Whoever in any way or degree
obstructs, delays, or affects commerce
or the movement of any article or
commodity in commerce, by robbery
or extortion or attempts or conspires so
to do, or commits or threatens physical
violence to any person or property
in furtherance of a plan or purpose
to do anything in violation of this
section shall be fined under this title
or imprisoned not more than twenty
years, or both.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Woodberry, 987 F.3d 1231 (2021)
21 Cal. Daily Op. Serv. 1443, 2021 Daily Journal D.A.R. 1439

18 U.S.C. § 1951(a). In addition, the Act defines “commerce”
as:

[C]ommerce within the District of
Columbia, or any Territory or
Possession of the United States; all
commerce between any point in a
State, Territory, Possession, or the
District of Columbia and any point
outside thereof; all commerce between
points within the same State through
any place outside such State; and all
other commerce over which the United
States has jurisdiction.

18 U.S.C. § 1951(b)(3).
Johnson contends that the district court erred in instructing
the jury that the “market for marijuana, including its intrastate
aspects, is commerce over which the United States has
jurisdiction.” He further contends that the district court erred
in instructing the jury that he could be found guilty under
the Hobbs Act if the robbery *1235 “could have” affected
commerce over which the United States has jurisdiction.
Johnson argues that the instruction should have required the
jury to find that the crime actually did obstruct, delay, or affect
commerce.
We disagree with both arguments. In Taylor v. United
States, the Supreme Court reaffirmed Congress' authority to
regulate the national market for marijuana, including conduct
that “even in the aggregate, may not substantially affect
commerce.” ––– U.S. ––––, 136 S. Ct. 2074, 2080–81, 195
L.Ed.2d 456 (2016). The Court held that “a robber who affects
or attempts to affect even the intrastate sale of marijuana
grown within the States affects or attempts to affect commerce
over which the United States has jurisdiction.” Id. at 2080.
The Court also explained that “proof that the defendant's
conduct in and of itself affected or threatened commerce is
not needed.” Id. at 2081. “All that is needed is proof that the
defendant's conduct fell within a category of conduct that, in
the aggregate, had the requisite effect.” Id.
Johnson contends that Taylor is inapposite because there, the
Court's holding was expressly limited to “cases in which the
defendant targets drug dealers for the purpose of stealing

drugs or drug proceeds.” Id. at 2082. Johnson relies on the
Court's statement in Taylor that its holding was cabined to the
facts before it. Id. (“We do not resolve what the Government
must prove to establish Hobbs Act robbery where some other
type of business or victim is targeted.”).
We reject Johnson's unreasonably narrow interpretation.
Taylor is binding because we see no meaningful difference
—at least for purposes of determining Congress' Commerce
Clause powers—between the drug dealer in Taylor and the
licensed marijuana dispensary in this case. Because both are
involved in the market for marijuana, it is clear to us that
a robbery of a licensed marijuana dispensary falls within
the same category of conduct that the Court addressed in
Taylor. Regardless of the fact that some states have legalized
marijuana for purposes of their state laws, the sale of this
substance affects the interstate market for it. Cf. Gonzales v.
Raich, 545 U.S. 1, 8–9, 125 S.Ct. 2195, 162 L.Ed.2d 1 (2005)
(holding that Congress's power to regulate interstate markets
encompasses intrastate markets for marijuana that is produced
and consumed locally and in compliance with state laws).
Relatedly, Johnson is wrong that the jury instructions
amounted to a directed verdict on the “commerce” element.
As Taylor made clear, Congress may regulate robberies that
only affect intrastate commerce so long as they “are part of
an economic ‘class of activities’ that have a substantial effect
on interstate commerce.” Taylor, 136 S. Ct. at 2080 (quoting
Raich, 545 U.S. at 17, 125 S.Ct. 2195). The district court's
jury instruction was not a directed verdict on the “commerce”
element because it delineated the scope of “commerce over
which the United States has jurisdiction,” 18 U.S.C. § 1951(b)
(3), consistent with what the Court held in Taylor. Indeed,
the district court's instruction quoted directly from Taylor.
Id. (“Under Raich, the market for marijuana, including its
intrastate aspects, is commerce over which the United States
has jurisdiction.” (quotation marks omitted)). That purely
legal determination did not strip the jury of the ability to
resolve the factual disputes underlying the charges: whether
the dispensary engaged in marijuana-related commerce and
whether Defendants robbed the dispensary.
We therefore hold that the district court did not err in
instructing the jury: (1) that the “market for marijuana,
including its *1236 intrastate aspects, is commerce over
which the United States has jurisdiction,” and (2) that the
“commerce” element of a Hobbs Act robbery could be
established if the robbery “could” affect commerce over
which the United States has jurisdiction.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Woodberry, 987 F.3d 1231 (2021)
21 Cal. Daily Op. Serv. 1443, 2021 Daily Journal D.A.R. 1439

B
Defendants also challenge the district court's jury instruction
regarding the short-barreled rifle provision in § 924(c)(1)
(B)(i). 2 They argue that because the short-barreled rifle
provision contains a mens rea requirement, the district court
should have instructed the jury to convict only if Defendants
knew that the rifle barrel was less than sixteen inches long.
We disagree.

1
Before reaching this issue, however, we address a matter
that requires clarification. Throughout this appeal, the
Government has repeatedly referred to the short-barrel
provision in § 924(c)(1)(B)(i) as a sentencing “enhancement,”
rather than an element.
In Alleyne v. United States, the Court held that “[a]ny fact that,
by law, increase[s] the penalty for a crime is an ‘element’ that
must be submitted to the jury and found beyond a reasonable
doubt.” 570 U.S. 99, 103, 133 S.Ct. 2151, 186 L.Ed.2d 314
(2013). Here, the short-barrel provision requires an increase
in a defendant's minimum sentence. 18 U.S.C. § 924(c)(1)
(B)(i) (“If the firearm possessed by a person convicted of a
violation of this subsection ... is a short-barreled rifle ... the
person shall be sentenced to a term of imprisonment of not
less than 10 years.”). Applying the categorical rule set forth in
Alleyne, 3 we hold that the short-barrel provision in § 924(c)
(1)(B)(i) is an essential element that must be proven to a jury
beyond a reasonable doubt.
We note that this distinction is somewhat semantic because
here, the district court properly put to the jury the question
of whether the barrel of Johnson's rifle was less than sixteen
inches in length. Nonetheless, because we and the Supreme
Court have referred to facts that increase mandatory minimum
penalties as sentencing enhancements in the past, see, e.g.,
Dean v. United States, 556 U.S. 568, 129 S.Ct. 1849, 173
L.Ed.2d 785 (2009); United States. v. McDuffy, 890 F.3d
796 (9th Cir. 2018), we so hold to remove any possibility
of confusion and to reflect the Supreme Court's holding in
Alleyne.

2
Having established that the short-barrel provision is an
essential element, we decide whether its application to
Defendants requires a showing of mens rea. In other words,
did the Government have to show that Woodberry and
Johnson knew that the rifle was a short-barreled rifle? We hold
that it did not, because *1237 § 924(c)(1)(B)(i) contains no
mens rea requirement.
The Supreme Court's decision in Dean v. United States,
556 U.S. 568, 129 S.Ct. 1849, 173 L.Ed.2d 785 (2009),
guides our analysis. In Dean, the Court considered a slightly
different but adjoining provision in § 924, which increases
the mandatory minimum sentence imposed for “crime of
violence” offenses involving a “firearm [that] is discharged.”
18 U.S.C. § 924(c)(1)(A)(iii). As a whole, the provisions
in subsection (A), which houses the “discharge” provision,
increase the mandatory minimum sentence for an offense
depending on whether the firearm is possessed, brandished,
or discharged, respectively:
[A]ny person who, during and in relation to any crime
of violence or drug trafficking crime ... uses or carries a
firearm, or who, in furtherance of any such crime, possesses
a firearm, shall, in addition to the punishment provided for
such crime of violence or drug trafficking crime—
(i) be sentenced to a term of imprisonment of not less than
5 years;
(ii) if the firearm is brandished, be sentenced to a term of
imprisonment of not less than 7 years; and
(iii) if the firearm is discharged, be sentenced to a term of
imprisonment of not less than 10 years.
18 U.S.C. § 924(c)(1)(A).
In determining whether the discharge provision contained a
mens rea requirement, the Court looked to several factors.
First, the Court considered the language of the statute and
noted that it was phrased in the passive voice. The Court
observed that “[t]he passive voice focuses on an event that
occurs without respect to a specific actor, and therefore
without respect to any actor's intent or culpability.” Dean, 556
U.S. at 572, 129 S.Ct. 1849 (citing Watson v. United States,
552 U.S. 74, 81, 128 S.Ct. 579, 169 L.Ed.2d 472 (2007)). This

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Woodberry, 987 F.3d 1231 (2021)
21 Cal. Daily Op. Serv. 1443, 2021 Daily Journal D.A.R. 1439

suggested that Congress did not intend to include a mens rea
requirement. Id.

specify any requirement that the defendant knew the rifle's
exact characteristics.

Second, the Court looked to the overarching structure of §
924(c)(1)(A), and stressed that Congress “expressly included
an intent requirement” for subsection (A)(ii), which is listed
right before the discharge provision at issue in Dean and
imposes heightened penalties for “brandishing” a firearm.
Id. at 572–73, 129 S.Ct. 1849. The discharge provision, by
contrast, contained no such language. The Court remarked
that “where Congress includes particular language in one
section of a statute but omits it in another section of the same
Act, it is generally presumed that Congress acts intentionally
and purposely in the disparate inclusion or exclusion.” Id. at
573, 129 S.Ct. 1849 (quoting Russello v. United States, 464
U.S. 16, 23, 104 S.Ct. 296, 78 L.Ed.2d 17 (1983)).

The structure of § 924(c)(1) also suggests that the shortbarreled provision does not contain a mens rea requirement.
As the Court noted in Dean, the fact that the “brandish”
provision in subsection (A)(ii) contains a mens rea
requirement suggests that if Congress had intended for
the short-barreled provision to require some showing of
intent, then Congress would have expressly included that
requirement.

Finally, the Court reasoned that mens rea was not required
because the discharge provision penalizes consequences
of already unlawful acts. Id. at 572–77, 129 S.Ct. 1849.
Applying these factors, the Court held that the “discharge”
provision in § 924(c)(1)(A)(iii) required no separate proof of
intent. Id. at 577, 129 S.Ct. 1849.
Here, the short-barrel rifle element is housed in the subsection
immediately following the discharge provision in Dean, see
18 U.S.C. § 924(c)(1), so the Court's reasoning in that case
is particularly instructive here. While subsection (A)—the
broader subsection at issue in Dean—imposes heightened
penalties based on the way in which a gun is used in
committing a crime of violence, subsection (B) increases a
defendant's sentence based on the type of weapon she or he
uses:
(B) If the firearm possessed by a person convicted of a
violation of this subsection—
*1238 (i) is a short-barreled rifle, short-barreled shotgun,
or semiautomatic assault weapon, the person shall be
sentenced to a term of imprisonment of not less than 10
years.
18 U.S.C. § 924(c)(1)(B)(i).
Like the provision at issue in Dean, the short-barrel element
is silent with respect to a knowledge requirement and is
phrased in the passive voice. See id. § 924(c)(1)(B)(i). This
suggests that Congress did not intend to include a mens rea
requirement. Subsection (B)(i) merely asks whether the rifle
used in the robbery “is a short-barreled rifle”; it does not

Defendants nonetheless urge us to depart from Dean and
instead follow the Supreme Court's holding in Staples v.
United States, 511 U.S. 600, 114 S.Ct. 1793, 128 L.Ed.2d
608 (1994). In Staples, the defendant was convicted under
26 U.S.C. § 5861(d), which imposes up to ten years
of imprisonment for possessing an unregistered automatic
gun. Id. at 602–03, 114 S.Ct. 1793. The Court applied a
longstanding presumption that when a criminal statute is
entirely silent as to the mens rea required for an offense,
courts will assume Congress did not intend to “dispense with
a conventional mens rea element, which would require that
the defendant know the facts that make his conduct illegal.”
Id. at 605, 114 S.Ct. 1793. Moreover, the Court inferred that
Congress would not have intended to impose such a harsh
penalty on defendants who were unaware they were violating
the law. Id. at 618, 114 S.Ct. 1793.
We recently observed that this presumption applies where a
criminal statute is “entirely silent on the mens rea required
for a criminal offense,” particularly “when a different reading
would have the effect of criminalizing ‘a broad range of
apparently innocent conduct.’ ” United States v. Collazo, 984
F.3d 1308, 1324 (9th Cir. 2021) (en banc) (quoting United
States v. X-Citement Video, 513 U.S. 64, 71, 115 S.Ct. 464,
130 L.Ed.2d 372 (1994)). That is not the case here.
First, as the Court recognized in Dean, § 924(c)(1) is
not entirely silent on the mens rea required to support a
conviction. Second, reading a mens rea requirement into the
statute is not necessary to distinguish between wrongful and
otherwise innocent acts. As we explained in Collazo, the
mens rea presumption does not apply to elements that do
not separate innocent from wrongful conduct. Id. at 1327–
28 (“Once a defendant knowingly or intentionally violates
federal law, ‘it is not unusual to punish individuals for the
unintended consequences of their unlawful acts.’ ” (quoting
Dean, 556 U.S. at 575, 129 S.Ct. 1849)).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Woodberry, 987 F.3d 1231 (2021)
21 Cal. Daily Op. Serv. 1443, 2021 Daily Journal D.A.R. 1439

The short-barreled rifle provision is one such element. We
see no reason to apply the mens rea presumption here, in part
because the statute in question does not penalize “entirely
innocent” conduct. Rehaif v. United States, ––– U.S. ––––,
139 S. Ct. 2191, 2197, 204 L.Ed.2d 594 (2019). Under §
924(c)(1), the short-barrel rifle provision applies only when
the defendant is guilty of an underlying crime. Although
Johnson's use of a short-barrel rifle must be proved for
the mandatory minimum in § 924(c)(1)(B)(i) to apply, that
predicate fact “do[es] not criminalize otherwise innocent
conduct, because the underlying conviction does not depend
on the presence or *1239 absence of the predicate fact.”
McDuffy, 890 F.3d at 801. Indeed, Defendants were found
“guilty of unlawful conduct twice over” before the jury ever
considered whether the firearm was a short-barreled rifle.
Dean, 556 U.S. at 576, 129 S.Ct. 1849.
At its core, this case calls for no more than a straightforward
application of Dean. We hold that § 924(c)(1)(B)(i) requires

no showing of mens rea as to the rifle barrel's length to sustain
a conviction.

C
We hold that the district court did not err in instructing the jury
that the “market for marijuana, including its intrastate aspects,
is commerce over which the United States has jurisdiction,”
or the “commerce” element of Hobbs Act robbery could
be established if the robbery “could” affect commerce over
which the United States has jurisdiction. Finally, we hold
that the short-barreled element in § 924(c)(1)(B)(i) does not
contain a separate mens rea requirement.
AFFIRMED.
All Citations
987 F.3d 1231, 21 Cal. Daily Op. Serv. 1443, 2021 Daily
Journal D.A.R. 1439

Footnotes
*
1
2

3

The Honorable Stephen R. Bough, United States District Judge for the Western District of Missouri, sitting
by designation.
Johnson and Woodberry were also charged with various other offenses, none of which are relevant for
purposes of this appeal.
Woodberry separately argues that Hobbs Act robbery cannot serve as a predicate “crime of violence” for a
conviction under 18 U.S.C. § 924(c). His argument is foreclosed, however, by our decision in United States v.
Dominguez, 954 F.3d 1251, 1261 (9th Cir. 2020) (“We reaffirm that Hobbs Act robbery is a crime of violence
under 18 U.S.C. § 924(c)(3)(A) ....”).
In his briefing, Johnson relied heavily on the Supreme Court's decision in United States v. O'Brien, in which
the Court applied a multi-factor test to determine whether Congress intended for the “machinegun provision”
of § 924(c)(1)(B)(ii) to be an element of the offense. 560 U.S. 218, 225–26, 230, 130 S.Ct. 2169, 176 L.Ed.2d
979 (2010). Although our decision today is consistent with O'Brien, that case has been rendered obsolete by
Alleyne, so we need not apply that multi-factor analysis.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

